Report No. SPO-2010-002                       April 20, 2010




                 Special Plans & Operations




          Review of Intra-Theater Transportation
           Planning, Capabilities, and Execution
               for the Drawdown from Iraq
General Information
Forward questions or comments concerning this assessment and report and other
activities conducted by the Office of Special Plans & Operations to:

                      Office of the Assistant Inspector General


                           for Special Plans & Operations


                  Department of Defense Office of Inspector General


                                400 Army Navy Drive


                             Arlington, VA 22202-4704


                                          or


                               E-mail: spo@dodig.mil



An overview of the Office of Special Plans & Operations mission and organization and a
list of past evaluations and future topics are available at http://www.dodig.mil.


To Report Fraud, Waste, and Abuse
Contact the Department of Defense Office of Inspector General hotline at (800)424-9098,
E-mail at hotline@dodig.mil or write:

                                  Defense Hotline


                                   The Pentagon


                             Washington, DC 20301-1900


                                Department of Defense
                                Office of Inspector General
________________________________________________________________________
April 20, 2010
Report No. SPO-2010-002

MEMORANDUM FOR DISTRIBUTION

SUBJECT:       Review of Intra-Theater Transportation Planning, Capabilities, and
Execution for the Drawdown from Iraq (Project No. D2009-D00SPO-0310.000)

We are providing this report for information and use. The report discusses intra-theater planning
for the drawdown of U.S. forces from Iraq by the U.S. Central Command (USCENTCOM) and
its subordinate and supporting organizations.

Objective. The objective of the assessment was to determine whether USCENTCOM and its
supporting and subordinate organizations’ intra-theater logistical planning and selected
capabilities were sufficient to support and manage the movement of materiel being drawn down
from Iraq.

General Background. On November 17, 2008, the governments of the United States and Iraq
signed the “Agreement Between the United States of America and the Republic of Iraq on the
Withdrawal of United States Forces from Iraq and the Organization of Their Activities during
Their Temporary Presence in Iraq” (the Security Agreement). The Security Agreement entered
into force on January 1, 2009, and stated in Article 24 that all U.S. forces shall withdraw from
Iraqi territory no later than December 31, 2011.

On February 27, 2009, in remarks delivered at Camp Lejeune, North Carolina, President Obama
announced that the United States’ combat mission in Iraq will end by August 31, 2010. He
pledged to remove all combat brigades from Iraq by that date and to change the mission from
combat to “supporting the Iraqi Government and its Security Forces as they take the absolute lead
in securing their country.” The President’s strategy requires U.S. force levels to decline to no
more than 50,000 troops by August 31, 2010.

Further, General Raymond Odierno, Commanding General, United States Forces-Iraq (USF-I), 1
stated in a letter dated February 27, 2009, to the personnel of the then Multi-National Force-Iraq
that, “As of 31 August 2010 our combat mission in Iraq will end.”

Results-In-Brief. We determined at the December 17, 2009, conclusion of our Iraq field review
that USCENTCOM and its subordinate and supporting organizations’ intra-theater logistical
planning and selected capabilities appeared to be sufficient to effectively manage and support the
movement of materiel being withdrawn from Iraq. Additionally, we observed that the logisticians
in these organizations were continuing to gain efficiencies in their planning processes, which we

1
 On January 1, 2010, the Multi-National Force-Iraq, the Multi-National Corps-Iraq, the Multi-National
Security and Transition Command-Iraq, and Task Force 134 were merged into the now established
“United States Forces-Iraq.”

                                                                                                        1
anticipate will progressively improve and enhance intra-theater transportation capabilities.
Therefore, we are not making specific recommendations in this report.

Nevertheless, there were still challenges identified by the team that continue to require close
management attention to ensure the most efficient, effective, and timely execution of
U.S. drawdown operations. We will continue to monitor these challenges as drawdown
operations continue.

See the Observation for further discussion on USCENTCOM planning initiatives as well as
additional challenges to drawdown operations identified. Attachment A provides the report
distribution, Attachment B explains the scope and methodology, and Attachment C provides the
management comments we received in response to a draft of this report.




                                                                                                  2
Observation. Intra-Theater Logistical Planning for
the Drawdown of Materiel from Iraq
We determined at the December 17, 2009, conclusion of our field review in Iraq that
USCENTCOM and its subordinate and supporting organizations’ intra-theater logistical planning
and selected capabilities appeared to be sufficient to effectively manage and support the
movement of materiel being withdrawn from Iraq. Additionally, we observed that the logisticians
in these organizations were continuing to gain efficiencies in their planning processes, which we
anticipate will progressively improve and enhance intra-theater transportation capabilities.

However, while overall planning and its ongoing adjustments appeared to be sufficient to
accommodate the drawdown from Iraq, there were still logistical challenges identified by the
team that continue to require close management attention to ensure the most efficient, effective,
and timely execution of drawdown operations.

These challenges included:
    •	 Transitioning from the pending expiration of the contracts for transportation services
       issued under the Heavy Lift VI program to the contracts to be issued under the Heavy Lift
       VII program 2
    •	 Gaining further accountability of “green” and “white” 3 materiel in Iraq
    •	 Gaining further accountability of shipping containers in Iraq
    •	 Determining the plan for disposition of some white materiel in Iraq
Drawdown efforts may be hindered if these challenges are not managed and addressed in a timely
manner.
______________________________________________________________________________

Background. USCENTCOM and its subordinate and supporting organizations issued detailed
operational plans for the drawdown of U.S. forces by August 31, 2010, predicated on the Security
Agreement, U.S. presidential guidance, and on-the-ground decisions made by the Commander,
USF-I. A common operating picture of the magnitude of the drawdown, according to information
provided by USF-I officials, follows:
    •		 U.S. Forces – There were more than 143,000 U.S. military forces in Iraq in January 2009.
        General Odierno has reported that there were about 110,000 U.S. forces in Iraq at the
        beginning of January 2010 and that by March 7, 2010, there would be roughly 100,000
        remaining. The presidential strategy, previously cited, is to reduce U.S. forces to 50,000
        by August 31, 2010.
    •		 Equipment – There were an estimated 3.4 million pieces of equipment in Iraq at the start
        of the drawdown, of which approximately 2.8 million pieces were “green” and 651,000

2
  The Heavy Lift VI program contracts are a U.S. Army Central initiative, managed through the
1st Sustainment Command (Theater), that provide commercial transportation services for the movement of
materiel primarily within Kuwait and Iraq. The Heavy Lift VII program contracts, once awarded, will be
the follow-on to the Heavy Lift VI program contracts.
3
  “Green” equipment is generally synonymous with standard military equipment; and “white” equipment is
generally synonymous with non-standard military equipment, Government-Furnished-Equipment (to
contractors), or Contractor-Managed/Government-Owned equipment.

                                                                                                     3
        were “white.” USF-I projected that 1.2 million pieces of equipment would remain in Iraq
        after August 31, 2010, to support of the transition force, and 2.1 million pieces would be
        withdrawn from Iraq during the drawdown. USF-I estimated that, as of October 31,
        2009, 1.8 million of the 2.1 million pieces of equipment remained to be withdrawn from
        Iraq.
    •	 Bases – There were 495 U.S. bases and facilities in Iraq at the start of the drawdown.
       USF-I stated that they had closed or transferred 260 bases and facilities between January
       2008 and January 2010, 4 with 235 remaining in operation. USF-I believes that the base
       closures and transfers were on track to meet the projected drawdown footprint.
    •	 Contractors – There were approximately 149,000 contractors in Iraq supporting
       U.S. forces, in January 2009, to include U.S. contractors, third country nationals, and
       local nationals. USF-I estimated that approximately 100,000 contractors remained in Iraq
       as of December 31, 2009. The USF-I goal was to have approximately 50,000 to 75,000
       contractors remaining in Iraq by September 2010, to support the U.S. transition force.
Work Completed in Kuwait. In November 2009, our assessment team visited the U.S. Army
Central (ARCENT) and the 1st Sustainment Command (Theater [1st TSC]) at their headquarters in
Kuwait to determine their respective roles and responsibilities in support of the drawdown.

In discussions with our assessment team, a number of officers from ARCENT and 1st TSC
responsible for drawdown operations expressed concerns regarding their lack of sufficient
visibility over the requirements for materiel required to be moved out of Iraq during the
drawdown. We therefore preliminarily concluded that ARCENT and 1st TSC officials did not
have, at that time, all of the Multi-National Force-Iraq and Multi-National Corps-Iraq
requirements for materiel that they needed to plan the transportation assets to be used for the
operation.

Additionally, based on our review of key drawdown operational plans and orders, we concluded
that ARCENT and 1st TSC officials did not have a clearly defined end-state date by when all
materiel associated with the drawdown to 50,000 troops must be removed from Iraq.

As a result, we issued a draft report in November 2009 noting these apparent shortfalls. We
recommended that the “green” and “white” materiel requiring movement out of Iraq be recounted
and revalidated by the Multi-National Force-Iraq and Multi-National Corps-Iraq and that the end-
state date for the withdrawal of materiel be clearly defined by the Multi-National Force-Iraq and
Multi-National Corps-Iraq, in coordination with USCENTCOM.

Work Completed in Iraq. In December 2009, we visited USF-I organizations and officials in
Iraq, subsequent to the issuance of our draft report that resulted from our Kuwait visit. We also
attended the ARCENT and 1st TSC “rehearsal of concept” (ROC) drill 5 held in Kuwait, in
December 2009, to observe briefings and discussions concerning the drawdown from Iraq.

Representatives from in-theater commands involved in the drawdown, as well as staff from
organizations located in the United States, attended the ROC drill to brief and review drawdown
plans with commanders and senior DoD officials in attendance. The discussions and briefings

4
 A number of bases and facilities were transferred to the control of the Government of Iraq.


5
 “Rehearsal of Concept” is a colloquial term not found in Joint Publication 1-02, DoD Dictionary of


Military and Associated Terms (as amended through 31 October 2009). However, a 1st TSC representative 

explained it as a synchronization of plans, in this case, for the responsible drawdown from Iraq.



                                                                                                     4
during our visits in Iraq and our attendance at the ROC drill in Kuwait indicated that our primary
drawdown observations from the team’s November 2009 draft report had been addressed. 6

Specifically, the results of the ROC drill enabled logistical planners to gain better visibility of the
volume of materiel requiring movement out of Iraq, as well as the transportation requirements for
moving that materiel. In addition, the end-state date was defined by senior logistical planners
present as “the majority of equipment out of Iraq by August 31, 2010, with the residual materiel
to be withdrawn by October 2010.”

Status of Planning for Drawdown Operations. We determined that USCENTCOM and its
subordinate and supporting organizations’ intra-theater logistical planning and selected
capabilities, based on our review of planning documents and an on-the-ground in-theater
assessment, appeared to be sufficient to effectively manage and support the movement of materiel
that had to be withdrawn from Iraq.

Moreover, U.S. military logisticians continued to gain efficiencies in their planning processes,
which were contributing to further improvements and clarity in defining intra-theater
transportation requirements and capabilities. However, while planning for the drawdown
continued to be refined, there remained several logistical challenges that still required close
management attention to ensure the most efficient, effective, and timely execution of drawdown
operations.

Below, we discuss both the planning initiatives and additional challenges to drawdown
operations.

Initiatives Associated with Drawdown Operations. While not all inclusive, we believe that the
following initiatives, some of which have already begun to be implemented, will significantly
assist in the drawdown efforts.

         Operation Clean Sweep. Operation Clean Sweep was a Multi-National Corps-Iraq
initiative directing units to “begin the identification, segregation, accountability, and turn-in of
non-mission essential supplies and equipment … in order to expedite the draw down process.”
Command officials from the 13th Sustainment Command (Expeditionary), headquartered at Joint
Base Balad, were coordinating Operation Clean Sweep throughout Iraq and had established
April 2010 as the goal for completing this operation.

Multi-National Corps-Iraq Fragmentary Order 1022, “Operation Clean Sweep,” October 26,
2009, states that Multi-National Corps-Iraq units will support Operation Clean Sweep and that
Multi-National Divisions’ tracking for 100 percent of subordinate unit participation at forward
operating bases, joint security stations, and combat outposts would be the key to success. We
believe that to be fully successful, Multi-National Division commanders need to ensure that all
units at U.S. bases and facilities cooperate and turn-in all excess items. Otherwise, requirements
for the movement of the materiel may be understated.

         “Thin the Lines.” General Odierno stated during testimony before the House Armed
Services Committee on September 30, 2009, that “as we go forward, we will thin our lines across
Iraq in order to reduce the risk and sustain stability through a deliberate transition of
responsibilities to the Iraqi Security Forces.” A senior official working at the office of the Joint

6
 Because the primary drawdown observations based on the team’s November 2009 visit to Kuwait had
been addressed, we did not finalize the draft report issued in November 2009.

                                                                                                       5
Chiefs of Staff further explained this concept to mean U.S. forces would be redeploying brigade
combat teams and battalions one-by-one through the summer of 2010 to ensure that the remaining
U.S. forces could maintain their Iraqi partnerships.

In our judgment, this initiative will enable the flow of troops and equipment out of Iraq to be
staggered over months instead of requiring a massive push in July and August 2010. U.S. forces
will therefore be able to progressively reduce to 50,000 troops, thus also alleviating the stress on
the infrastructure base and intra-theater logistical support capabilities in Iraq and Kuwait by
spreading the drawdown over a longer time period.

         Door-to-Door Movements. 7 According to Marine Corps officials, door-to-door materiel
movements were conducted in Iraq to support its forces in their Iraq drawdown operations. Using
this method, commercial transport carriers moved a large majority of the Marine Corps’ non­
lethal equipment from forward operating bases in western Iraq, to the port of Aqaba in Jordan,
and then to designated destinations in the United States.

At the time of our fieldwork in Iraq, we were informed that the Army also planned to use
door-to-door movements through Jordan for the non-lethal equipment of four brigades as
drawdown operations continued. According to a USF-I official, these door-to-door movements
will reduce the stress on the logistical capabilities of the 13th Sustainment Command
(Expeditionary) and the 1st TSC, thus freeing their assets for other sustainment, support, and
drawdown missions. Using the port of Aqaba will also reduce the flow of materiel through
Kuwait and its ports.

       Rehearsal of Concept Drill. ARCENT and 1st TSC co-hosted a Responsible
Drawdown ROC drill in Kuwait, on December 14, 2009, at which logistics planners briefed their
December 2009 to August 2010 drawdown plans to commanders and senior DoD officials.
Major DoD organizations that had an involvement and interest in the drawdown of troops and
equipment from Iraq attended.

The ROC drill included briefings and discussions on a variety of topics ranging from weather
predictions, threat trends, and customs operations; to the withdrawal timelines of specific units
and ammunition, and the numbers of shipping containers to be used.

In our judgment, the ROC drill was key to identifying specific and shared roles and
responsibilities of the many military commands and DoD civilian organizations engaged in
directing and supporting this exceptionally complex drawdown operation. In addition, it should
significantly facilitate synchronization of their logistical support efforts so that execution can
proceed on a responsible and timely basis.

Challenges to Drawdown Operations. We identified certain logistical challenges that require
close management attention to ensure the most efficient, effective, and timely execution of
drawdown operations.

       Transition from the Heavy Lift VI Program to the Heavy Lift VII Program. The
Heavy Lift VI program was established to provide cargo line haul and heavy lift, along with

7
 A “door-to-door” movement in international transport logistics is commonly understood to mean the
movement of cargo from its point of origin to its destination. Door-to-door movements involve the intact
movement of a particular cargo and are often associated with a single transaction in which a logistics
service provider assumes responsibility for the cargo for the whole journey.

                                                                                                           6
personnel transportation services in Iraq, Kuwait, and Saudi Arabia, using multiple-award
contracts to three companies. The contracts were awarded in July 2005, with a base year and
up-to four 1-year option periods (used to extend the contract), all of which have been exercised.

Army acquisition and contracting officials were working to award the Heavy Lift VII program
contracts as a follow on because the Heavy Lift VI contracts were due to expire on June 30, 2010,
at the beginning of the peak drawdown period. We were informed that the Heavy Lift VII
contracts were to include the same transportation services as did the Heavy Lift VI contracts, be
multiple-award contracts for up-to four companies, and were to have a base year contract with
four 1-year options. U.S. Army Contracting Command officials noted the following
considerations and challenges in the process to award the Heavy Lift VII contracts:
        •		 Kuwaiti, Iraqi, and Saudi laws, policies, and customs
        •		 Recruiting, retaining, and training a large, multi-national workforce
        •		 Potential problems in timely issuance of badges at the time of transition from the
            Heavy Lift VI contracts to the Heavy Lift VII contracts because of known limitations
            in processing new contractor personnel badges
        •		 Uncertainties due to volatile, unpredictable requirements
        •		 Harsh operating conditions
Contracting officials also explained that all contracted drivers would have to obtain multiple new
badges under new Heavy Lift VII contracts. Based on known processing capabilities, they
estimated that it could take approximately four months to re-badge approximately 4,000 drivers.
Therefore, if the Heavy Lift VII contracts were not awarded with sufficient lead-time, there could
be a shortage of drivers with the appropriate badges to conduct transportation services once the
Heavy Lift VI contracts expire. U.S. Army Contracting Command officials were aware of these
challenges and were working to award the Heavy Lift VII contracts on a timely basis with
minimal disruption to drawdown operations.

         Materiel Accountability. During our visit to Iraq, command officials stated that they
would continue to identify unaccounted for property and bring it to record through certain
planning initiatives and ongoing drawdown operations. A specific planning initiative focused on
this objective was Operation Clean Sweep, as previously discussed in this report.

The importance of the need for this particular initiative was underscored by the experience of
Multi-National Forces-West, whose senior Marine Corps’ logistics officers explained that at the
completion of drawdown operations, they estimated that their units had turned in approximately
25 percent more equipment than was previously recorded on their property books. It is not
certain that this phenomenon is also applicable to U.S. Army units, although it may be indicative.
However, we did not assess this issue.

As materiel accountability continues in Iraq for both green and white equipment, logistical
planners, in our jugdment, will need to identify and monitor any significant increases in materiel
to ensure that enough containers, trucking assets, and other logistical requirements are identified
and resourced.

        Container Accountability. The Integrated Booking System-Container Management
Module (IBS-CMM) is an Army-approved automated Web-based container management
database that provides inventory, tracking, visibility, accountability, and management support to
commanders in the USCENTCOM area of responsibility. Army personnel informed us, after our

                                                                                                      7
visit to Iraq, that the Army Container Asset Management System8 was the system of record for
container management worldwide for DoD and that IBS-CMM was only used in the
USCENTCOM area of responsibility.

USF-I officials stated that at the beginning of their drawdown planning efforts, they queried
IBS-CMM data for the number of containers. This data indicated that there were approximately
90,000 containers in Iraq. The command subsequently conducted a physical inventory of
containers in Iraq and the resulting count was approximately 60,000 containers. According to
USF-I officials, the command performed further analysis and concluded that the approximately
60,000 container count was a more accurate number and this figure was thereafter used as a
planning factor to support drawdown operations. It is likely that as containers were moved into
or out of locations in Iraq, the data in IBS-CMM had not been updated.

It appeared, nonetheless, that commanders in Iraq may not be able to depend on the reliability of
IBS-CMM data regarding container accountability in Iraq. As a consequence, they would not be
able to determine whether they had developed accurate transportation requirements based on the
number of containers available to execute drawdown operations. USF-I officials stated they were
confident that the container count at the 60,000 level was accurate and could be used as a
transportation planning factor. 9

         Disposition Instructions. According to USF-I officials during our visit to Iraq, the
disposition of certain materiel in Iraq had not yet been determined. Specifically, it had not been
decided whether some white equipment would be sent to Afghanistan or would remain in Iraq. In
our opinion, until this disposition is known, transportation requirements cannot be fully
determined and, therefore, logistical planners cannot allocate transportation assets accordingly.

This issue has been under review by a DoDIG team conducting an audit on the “Controls Over
the Accountability and Disposition of Government-Furnished-Property in Iraq.” The overall
objective of this audit is to determine whether DoD has adequate controls over government-
furnished property as it prepares to draw down forces from Iraq. Specifically, the audit team has
been determining whether DoD has properly accounted for government-furnished property;
whether policies and procedures existed for the proper transfer, reset, or disposal of government-
furnished property; and whether those policies and procedures were being executed adequately.

The Office of Special Plans and Operations will continue to work closely with its Office of the
Inspector General counterparts to monitor the accountability and disposition of white equipment
in Iraq.

Conclusion. USCENTCOM and its subordinate and supporting organizations are engaged in one
of the largest and most complex movements of personnel and materiel in recent U.S. military



8
  The Army Container Asset Management System is a web-based software application used to assist the
Army Intermodal and Distribution Platform Management Office with the management, inventory,
accountability, readiness, and condition data of all Army owned or leased International Organization for
Standardization containers, flatracks, and container roll-in roll-out platforms.
9
  According to CENTCOM and USF-I personnel, “containers are now labeled as assets and not expendable
military equipment. The Container Management Element (CME) located at Camp Arifjan, Kuwait, has
been tasked to assist ARCENT (Container Management Executive Agent) in managing container
accountability via monthly inventories and system updates on container locations. This process was found
to be effective in determining container ownership and usage/requirements.”

                                                                                                       8
history. We commend the significant efforts and accomplishments to-date of the responsible
organizations and their personnel managing the extremely challenging drawdown from Iraq.


We determined that USCENTCOM and its subordinate and supporting organizations' intra­
theater logistical planning and selected capabilities appeared to be sufficient to effectively
manage and support the movement of materiel being withdrawn from Iraq. Additionally, we
observed that the logisticians in these organizations continued to gain efficiencies in their
planning processes, which we anticipate will progressively improve and enhance intra-theater
transportation capabilities. Therefore, we are not making specific recommendations in this
report.


However, there were still logistical challenges identified by the team that continue to require
close management attention to ensure the most efficient, effective, and timely execution of
drawdown operations. Although the challenges could develop into potential impediments to the
drawdown, logistical planners were aware of and attempting to manage them on an ongoing basis.


We will continue to monitor these challenges as drawdown operations continue. To aid our
efforts, we will request updates on the progress of the transition to Heavy Lift VII program
contracts; the efforts to gain accountability of both "green" and "white" materiel; and the
determination of disposition of some materiel in Iraq, specifically "white" equipment.


Additionally, we will be monitoring the results of the OoOIG audit report on "Controls Over the
Accountability and Disposition of Government-Furnished Property in Iraq," as it addresses
accountability and disposition of white equipment in Iraq. We may initiate additional work based
on the command response to this report and additional updates on the progress of drawdown
operations during the ensuing months. Further, we may conduct additional work to assess the
impact of using multiple container accountability systems on overall container management
within 000.



Management Comments
Although formal comments were not required, we provided the Commander, U.S. Central
Command; Commander, U.S. Forces-Iraq; Commander, U.S. Army Central; Commander,
U.S. Marine Corps Forces Central Command; and the Commander, U.S. Army Contracting
Command the 0PPOltunity to comment on a draft of this report. In ajoint response,
USCENTCOM and USF-I concurred with the draft report and provided technical comments,
which we considered when developing the final report. The joint USCENTCOM and USF-I
response can be reviewed in Attachment C. No additional comments are required.


We appreciate the courtesies extended to the staff. Please direct your questions to Mr. Robert M.
Murrell at (703) 604-9074 (OSN 664-9074), robert.murrcll@dodig.mil, or
robcrl.l11urrell@dodig.sl11il.l11il.




                                                   Kenn th P. Moorefield
                                                   Depu    Inspector General
                                                   Special Plans and Operations



                                                                                                  9
Attachment A: Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer

Office of the Chairman of the Joint Chiefs of Staff
Director, Joint Staff

Combatant Commands
Commander, U.S. Central Command
   Commander, U.S. Forces-Iraq
   Commander, U.S. Army Central
   Commander, U.S. Naval Forces Central Command
   Commander, U.S. Air Forces Central Command
   Commander, U.S. Marine Corps Forces Central Command
Commander, U.S. Transportation Command
   Commander, Surface Deployment and Distribution Command
   Commander, Military Sealift Command
   Commander, Air Mobility Command

Department of the Army
Commander, U.S. Army Forces Command
   Commander, 4th Infantry Division
Commander, U.S. Army Materiel Command
   Commander, U.S. Army Contracting Command
Assistant Secretary of the Army for Acquisition, Logistics, and Technology
Deputy Chief of Staff for Logistics, U.S. Army
Auditor General, Department of the Army

Department of the Navy
Deputy Commandant of Installations and Logistics, U.S. Marine Corps
Naval Inspector General
Commander, 2nd Marine Division

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)

Other Defense Organizations
Director, Defense Contract Management Agency
Director, Defense Logistics Agency
The Special Inspector General for Iraq Reconstruction




                                                                              11
Other Non-Defense Federal Organizations
Government Accountability Office

Congressional Committees and Subcommittees, Chairman and
Ranking Member
Senate Committee on Appropriations
   Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Foreign Relations
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
   House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
   House Subcommittee on National Security and Foreign Affairs
House Committee on Foreign Affairs




                                                                 12
Attachment B: Scope and Methodology
Scope and Methodology. We performed this assessment from September 10, 2009, through the


conclusion of our fieldwork in Iraq on December 17, 2009, in accordance with the Quality


Standards for Inspections. We planned and performed the assessment to obtain sufficient and


appropriate evidence to provide a reasonable basis for our observations, conclusions, and


recommendations, based on our objectives.



We evaluated whether U.S. Central Command (USCENTCOM) and its supporting and


subordinate organizations’ intra-theater logistical planning and selected capabilities were 

sufficient to support and manage the movement of materiel being drawn down from Iraq.



We reviewed operations plans and orders for USCENTCOM, Multi-National Forces-Iraq, 

Multi National Corps-Iraq, U.S. Army Central, and the 1st Sustainment Command (Theater) and 

conducted site visits within the United States and the USCENTCOM area of operations.



Specifically, we visited Qatar and Kuwait from October 27 to November 9, 2009, and Iraq and 

Kuwait from December 7 to17, 2009. During our site visits, we visited or contacted individuals –


ranging from general officers, unit commanders, and staff officers, to civilians and contractors –


from the following organizations:


    •	   U.S. Central Command
    •	   U.S. Forces-Iraq
    •	   U.S. Army Central
    •	   U.S. Marine Corps Forces Central
    •	   Multi-National Forces-West
    •	   1st Sustainment Command (Theater)
    •	   13th Sustainment Command (Expeditionary)
    •	   II Marine Expeditionary Force
    •	   4th Infantry Division
    •	   U.S. Marine Corps Logistics Command-Forward
    •	   CENTCOM Deployment Distribution Operations Center
    •	   Army Materiel Command/401st and 402nd Army Field Support Brigades
    •	   593rd Sustainment Brigade
    •	   Surface Deployment and Distribution Command/595th Transportation Terminal Group
    •	   Army and Air Forces Exchange Services
    •	   Kellogg, Brown, and Root, Inc.
During our site visits in Kuwait, we visited the:
    •	 Kuwait-Iraq border (Khabari crossing) to review border crossing procedures and 

       interview customs inspectors

    •	 Wash racks and staging areas to determine whether those functions could support


       increased throughput of materiel

    •	 Ports at Kuwait Naval Base and Shuaiba to review the processes to prepare materiel for
       ocean transport
During site visits in Iraq, we visited the:
    •	 Victory Base Complex to discuss drawdown plans and oversight of the drawdown
       process with USF-I officials

                                                                                                13
    •	 Al Asad Air Base to observe the execution of drawdown operations and discuss lessons
       learned with officials from Multi-National Forces-West
    •	 Joint Base Balad to discuss intra-theater transportation planning, capabilities, and
       execution with officials from the 13th Sustainment Command (Expeditionary)
Finally, we visited Kuwait in December 2009 to attend the “rehearsal of concept” drill, hosted by
the U.S. Army Central and the 1st Sustainment Command (Theater). We attended to observe
logistics planners brief their December 2009 to August 2010 drawdown plans to commanders and
senior DoD officials and to obtain details on the accomplishments of the ongoing drawdown
execution through early December 2009.

Prior Coverage. There has been no prior coverage on drawdown operations specific to intra­
theater transportation in the last three years. However, the Government Accountability Office
(GAO) has provided testimony on DoD’s planning efforts for the drawdown. Concerning the
testimony, GAO issued GAO-10-179, “Operation Iraqi Freedom: Preliminary Observations on
DoD Planning for the Drawdown of U.S. Forces from Iraq,” a statement by GAO before the
Commission on Wartime Contracting in Iraq and Afghanistan on November 2, 2009.
Unrestricted GAO reports can be accessed over the Internet at http://www.gao.gov.




                                                                                                14
Attachment C: U.S. Central Command and
U.S. Forces-Iraq Comments




                               t;i'iITEIJ STATES CENTRA L Co\l :VIAi'i1>
                                      OFe;l(,E OF TilE CH ISF OF STAFF
                                     7115 ..,OnH BOliND,\R'r BOFLFV \ RD
                               l\t:\UJI U \ IR H)R(,\~ BA"I~.. HORIDA .,3(.2 1·5 101


                                                                                       i 6 April 2010

       FOR: DEPARTMENT OF DEFENSE INSPECTOR GENERAL

       SUBJECT: United States Central Command Response to DODIG Draft Report "Review of
                In tra-Themer Transponacion Planning. Capabi lities and Execution for the
                 IJrawdown from Iraq". (DO DIG CODE D2009-DOOOLC-0240.00I)

       [. Thank you for the opportunity to respond to the recommendations presented in the
       DODlG draft report.

       2. USCENTCOM and USF-I concur with the draft report and provide the attached
       technical comments to the report. These changes are recommended to more accurately
       and fully reflect the current situation on the ground.

       3. The Point of Contact is Colonel Mario V. Garcia, Jr., USCENTCOM Inspector
       General, (8 13) 827-6660.

                                  Click to add JPEG file
                                             L .-t},aJ<....
                                                Jz.    JA W.HOOD
                                                       Major General. U.S. Army

      Enclosure:
      CENTCOM Rt:spunst:




                                                                                                        15
                                                                                                     Final Report 

                                                                                                      Reference






                               DODIG Draft Report Review

                       (DODIG D2009.DOOSPO·031O.000)
   "Review Intra-Theater Transportation Planning, Capabilities and Execution for
                            the D"awdowlI frolU Inq"

       CENTCOM AND USF· I GENERAL COMMENT S ON THE REPORT

1. (U) Page 4. The report states that. "The USF-Tgoal was to have approx imately 55.000            changed - pg. 4 

contractors remaining in Iraq by September 2010. to ~uprort the US. transition force."
Recommend modifying the sentence_to read: "The USF-I goal was to have approximately
50.000 to 75.000 contractors remaining in Iraq by September 2010, to support the U.S.
lransition force." The goal, which has been reflected on severaJ briefs and repOfts, i:­
expected to be bctween 50,000 and 75,000 contractors by September 201 0. The ratio of
conrraClOr to mHirary personnel in Iraq has historically ranged between I to I and 1.5 to
1. Hased on these ratios, and if the military force structure is reduced to approximately
50,000. the number of contractors in Iraq is expected to be between 50,000 and 75.000.
The range in numbers is due to several factors. First. there is nct an immediatc direct
correlation between the reduclion in the mi litary footprint and the. re.duction in
contractors. Specificall y, there is normall y.a time gap, as much as 90-days. before an
associated contractor reduction results. Secondl y, a'i military force~ arc reduced, residual
and ba:.e operating SUppOt1 functions arc still a rcquirel!lt:ul. In fact, there may be a slight
illcrease in cenain contractor categories, such as transponation. to facilitate t:'Oop and
equipment withdrawals. As of _F ebruary 2010, the number of contractors in Iraq was
90.000."

2. (U) Page 6. With regard to the "Heavy-Lift VI" and "Heavy-Lift VII" programs.
recommend that it be annotated thm thc."c are ARCENT, Kuwait initiatives llIat:.aged
                                                                                                   added - footnote 

through the 1st Theater Support Command (TSC).                                                     pg. 3 


3. (U) Page 8. The report states that, "It appeared, nonetheless, that commanders in Iraq
Illay nOt be able to depend on the reliability of mS-CMM data regarding container
accountability in Iraq. As a consequence, they would not be able to determine whether
they had devcloped accurate'transportation requirements based on the number of
containen; available to execute drawdown operations. USF- I officials stated they -",'ere
confident that the container count at the 60.000 level was accurate and could he u~d as a
transportation planning factor." Recommend replncing this statement with. ''Containers
are now labeled a.~ assets and not expendable mililary equipment. The Container                    added - footnote 

Management Element (CME) located at Camp Arifjan, Kuwait has been tasked to a'isisl                pg. 8

ARCENT (Container Management Executive Agent) in managing container
accountability, via momhly inventories and system updates on container locations. This
process was found to be effective in detcmlining container ownership and
usage/requirements."




                                                                                                           16
